No. 20-1648

In the Supreme Court of the United States

________________
JAMES H. FISCHER,
Petitioner,
v.
SANDRA F. FORREST, SHANE R. GEBAUER, BRUSHY
MOUNTAIN BEE FARM, INC.,
STEPHEN T. FORREST, JR.,
Respondents.
________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
________________
BRIEF OF AMICI CURIAE INFORMATION DIGNITY
ALLIANCE, AMERICAN SOCIETY OF MEDIA
PHOTOGRAPHERS, ERIC PRIEST, LOCAL CONTEXTS,
NATIONAL PRESS PHOTOGRAPHERS ASSOCIATION
(NPPA), AMERICAN PHOTOGRAPHIC ARTISTS (APA),
AMERICAN SOCIETY FOR COLLECTIVE RIGHTS
LICENSING (ASCRL), GRAPHIC ARTISTS GUILD, INC.
(GAG), NORTH AMERICAN NATURE PHOTOGRAPHY
ASSOCIATION (NANPA) SUPPORTING PETITIONER

________________
Megan Verrips
Edward F. Cunningham
Information Dignity Alliance
Counsel of Record
P.O. Box 8684
Law Offices of
Portland, OR 97207
Edward F. Cunningham
(925) 330-0359
62 Cambridge Avenue
megan@informationdignityalliance.org Garden City, NY 11530
(516) 328-3705
ed@edcuninghamlaw.com
Counsel for Amici Curiae

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICI CURIAE ................................ 1
SUMMARY OF ARGUMENT ..................................... 4
ARGUMENT ................................................................ 6
I.

A driving impetus for passing the DMCA’s
protection of CMI was the importance of
rights information for all stakeholders ................ 6

II. Congress’s broad definition of CMI has
empowered and protected eclectic groups of
entities ranging from marginalized groups to
established industries ......................................... 10
a. Individual citizens and non-profits have
innovatively utilized the expansive
definition of CMI, working with
Indigenous groups to use CMI to reclaim,
reanimate, protect and, looking-forward,
preserve, their culture and heritage ............ 10
b. Visual artists, including photographers,
are uniquely dependent upon CMI to
protect their works online and earn their
livelihood in a digitized society .................... 18

ii
c.

As expected, leading entertainment
companies adopted CMI into their core
business models by using streaming
services to distribute creative works to
the public ...................................................... 23

III. The Second Circuit’s decision leads this
Court to an important crossroads....................... 27
CONCLUSION .......................................................... 29

iii
TABLE OF AUTHORITIES
Cases
Eldred v. Ashcroft,
537 U.S. 186 (2003) ................................................ 24
Energy Intelligence Grp., Inc. v. Kayne Anderson
Capital Advisors, L.P.,
948 F.3d 261 (5th Cir. 2020) .............................. 9, 21
Golan v. Holder,
565 U.S. 302 (2012) ................................................ 21
Murphy v. Millennium Radio Grp. LLC,
650 F.3d 295 (3d Cir. 2011) ..................................... 9
Statutes
17 U.S.C. § 1202(a) ...................................................... 8
17 U.S.C. § 1202(c) ............................................ 4, 6, 12
17 U.S.C. § 1202(c)(2) ................................................ 12
17 U.S.C. § 1202(c)(6) .......................................... 12, 13
Treatises
GOLDSTEIN ON COPYRIGHT (2021) ................................ 8
NIMMER ON COPYRIGHT (2021) ..................................... 6

iv
Other Authorities
2020 Occupational Outlook Handbook:
Photographers, U.S. Bureau of Labor Statistics
(last modified Apr. 9, 2021) ....................................... 19
Jane Anderson & Kimberly Christen,
Decolonizing Attribution: Traditions of
Exclusion, 5 J. Radical Libr’ship 113 (2019) ...... 11, 14
Jonathan Berr, Consumers Can’t Get Enough
Video Streaming, Forbes (Aug. 31, 2020) ................. 23
Susan Carr, Understanding Licensing – The
Key to Being a Professional Photographer, in
Prof’l Bus. Practices in Photography 3 (7th ed.,
2008) ........................................................................... 18
Jeffrey P. Cunard et al., Current
Developments in the Field of Digital Rights
Management, World Intellectual Property
Organization Standing Committee on
Copyright and Related Rights, 52 (May 4,
2004) ........................................................................... 24
Frederick W. Dingledy & Alex B. Matamoros
Digital Rights Management: What is Digital
Rights Management? (2016) ............................... 25, 26
Dunja Djudjic, “Google Proposes Solution That
Makes Watermarks More Difficult to Remove,
DIY Photography” (Aug. 18, 2017)............................ 18

v
Jane C. Ginsburg, The Most Moral of Rights:
The Right to be Recognized as the Author of
One’s Work, 8 George Mason Int’l L.J. 44 (2016)....... 7
Paul Goldstein, Copyright’s Highway: From
Guttenberg to the Celestial Jukebox, (2d ed.
2019) ........................................................................... 24
Timothy B. Lee, “Instagram just threw its users
of its embedding API under the bus,”
ArsTechnica (June 4, 2020) ....................................... 20
Bruce A. Lehman et al., Intellectual Property
and the National Information Infrastructure:
The Report on Working Group on Intellectual
Property Rights (September 1995) .............. 7, 8, 9, 25
Local Contexts, https://localcontexts.org/
labels/traditional-knowledge-labels/ ......................... 12
Coralie Mercier, “Information about W3C and
Encrypted Media Extensions (EME)”, World Wide
Web Consortium (W3C) (Mar. 2016),
https://www.w3.org/2016/03/EME-factsheet ............ 25
U.S. Copyright Office, Report on Orphan Works
2 (Jan. 2006),
https://www.copyright.gov/orphan/orphanreport-full.pdf....................................................... 20, 21
Nick Scharf, The Evolution and Consequences of
Digital Rights Management in Relation to Online
Music Streaming (June 2021) ................................... 24

vi
Jeffrey Sedlik, Is the DMCA’s Notice-andTakedown System Working in the 21st
Century?: Responses of Jeffrey Sedlik to
Chairman Tillis’ Questions for the Record (June
23, 2020) ..................................................................... 21
Jeffrey Sedlik, The Orphan Works Dilemma:
Challenges and Recommendations, Advertising
Photographers of America (Mar. 15, 2006)............... 21
Stephen E. Siwek, Copyright Industries in the
U.S. Economy: The 2018 Report 3 (2018),
https://iipa.org/files/uploads/2018/12/2018CpyrtR
ptFull.pdf ................................................................... 19
Neil Turkewitz, Copyright Modernization:
Unbreaking Copyright, (July 6, 2020) .................... 7, 8
“Video Streaming Market Size, Share &
Industry Analysis”, Fortune Business Insights
(June 2020) ................................................................ 23

1
INTEREST OF AMICI CURIAE 1
The Information Dignity Alliance (IDA) is a
501(c)(3) non-profit focused on clarifying existing laws
to ensure the continued protection of individual
autonomy, personhood, and privacy in the Information
Age. The IDA sees copyright law as an effective tool
to protect natural rights associated with creative
works of authorship. The IDA believes that the proper
application of existing copyright law advances
individual autonomy and dignity.
American Society of Media Photographers, Inc.
(ASMP) is a 26 U.S.C. 501(c)(6) non-profit trade
association representing thousands of members who
create and own substantial numbers of copyrighted
photographs. These members all envision, design,
produce, sell, and license their photography in the
commercial market to entities as varied as
multinational corporations to local mom and pop
stores, and every group in between. In its seventy-sixyear history, ASMP has been committed to protecting
the rights of photographers and promoting the craft of
photography.
Pursuant to Supreme Court Rule 37.2(a), counsel of record for
all parties have been timely notified of intent to file this amicus
brief in support of Certiorari. Consent from all parties was
granted. Further, pursuant to Supreme Court Rule 37.6, counsel
for amici curiae certify that this brief was not authored in whole
or in part by counsel for any party and that no person or entity
other than amici curiae, their members, or their counsel have
made a monetary contribution intended to fund the preparation
or submission of this brief.
1

2
Eric Priest is an Associate Professor at the
University of Oregon School of Law. Eric has
researched and taught copyright law for more than a
decade. Eric researches in the area of intellectual
property law, with a focus on copyright law in the
information age and creative industry ecosystems in
the U.S. and China.
Local Contexts is an Indigenous digital ethics
initiative supported by the Equity for Indigenous
Research and Innovation Co-ordinating Hub
(ENRICH) based at New York University and the
University of Waikato. Local Contexts works to
enhance and legitimize locally based decision-making
and Indigenous governance frameworks for
determining ownership, access, and culturally
appropriate conditions for sharing historical,
contemporary and future collections of cultural
heritage and Indigenous data. Local Contexts offers
digital strategies for recognizing Indigenous
provenance, protocols and permissions for using
cultural works and data through the TK (Traditional
Knowledge) & BC (Biocultural) Labels and Notices.
Local Contexts is focused on increasing Indigenous
involvement in data governance and advancing
aspirations for Indigenous data sovereignty and
Indigenous innovation.
National Press Photographers Association
(NPPA) is a 501(c)(6) non-profit organization
dedicated to the advancement of visual journalism in
its creation, editing, and distribution. NPPA’s
members include video and still photographers,

3
editors, students, and representatives of businesses
that serve the visual journalism community. Since its
founding in 1946, the NPPA has been the Voice of
Visual Journalists, vigorously promoting the
constitutional and intellectual property rights of
journalists as well as freedom of the press in all its
forms, especially as it relates to visual journalism.
American
Photographic
Artists (APA) is
a leading national organization run by and for
professional photographers. APA strives to improve
the environment for photographic artists and clear the
pathways to success in the industry. Recognized for its
broad industry reach, APA continues to expand
benefits for its members and works to champion
the rights of photographers and image-makers
worldwide.
American Society for Collective Rights
Licensing (ASCRL) is a 501(c)(6) not for profit
corporation founded in the United States to collect and
distribute collective rights revenue for photography
and illustration to United States authors and rights
holders and to foreign national authors and rights
holders whose works are published in the United
States. ASCRL represents over 16,000 illustrators and
photographers, and is the leading collective rights
organization in the United States for this constituency
of rights owners. ASCRL is a zealous defender of the
primary rights of illustrators and photographers, and
ASCRL actively engages in policy and legislative
initiatives that advance their interests.

4
Graphic Artists Guild, Inc. (GAG) has advocated
on behalf of graphic designers, illustrators, animators,
cartoonists, comic artists, web designers, and
production artists for over 50 years. The Graphic
Artists Guild Handbook: Pricing & Ethical Guidelines
provides graphic artists and their clients guidance on
best practices and pricing standards.
North
American
Nature
Photography
Association (NANPA) is a 501(c)(6) non-profit
organization founded in 1994. NANPA promotes
responsible nature photography as an artistic medium
for the documentation, celebration, and protection of
our natural world. NANPA is a critical advocate for
the rights of nature photographers on a wide range of
issues, from intellectual property to public land
access.
SUMMARY OF ARGUMENT
Congress passed the DMCA in 1998 to update
copyright law for the digital age. Among the updates
that Congress enacted was the addition of protections
for Copyright Management Information (“CMI”). CMI
is defined to include eight enumerated categories of
information (e.g. author’s name, copyright owner’s
name, terms and conditions for use of the work, or
even “identifying numbers or symbols referring to
such information or links to such information”, etc.) 17
U.S.C. § 1202(c). Congress’s vision of CMI was to
ensure that the public would be able to find works and
authors online as well as to help protect those authors
from digital infringement. Congress wrote a broad and

5
flexible definition of CMI leaving it to the private
sector to create new ways of identifying works. This is
exactly what happened.
Relying upon Congress’s broad definition, many
entities and individuals have made new and
innovative uses of CMI. Indigenous communities are
using CMI to reclaim, reanimate, protect and, lookingforward, preserve their culture and heritage.
Photographers depend upon CMI for their livelihood
and to protect and license their works online. Contentstreaming companies have created an entire industry
with the help of CMI.
All of these uses rely upon a clear reading of the
statute as written. The Second Circuit strayed from
the text by interjecting an ill-defined “context
matters” approach. The Second Circuit’s extrastatutory interpretation of the law can threaten the
current infrastructures built upon a clear
understanding of what constitutes CMI. Due to the
internet’s
ability
to
transcend
geographical
boundaries, the Second Circuit’s decision will bleed
into its sister circuits that took an alternative
approach. Respectfully, this Court should grant
Certiorari, and clarify the law.

6
ARGUMENT
I.

A driving impetus for passing the
DMCA’s protection of CMI was the
importance of rights information for all
stakeholders.

The dawn of the internet spurred the Clinton
Administration to establish a committee to implement
the Administration’s vision for updating copyright law
for the new millennium. The revisions updating
copyright law tackled three emerging issues: online
liability for intermediaries, the protection of
technological protection measures, and copyright
management information (“CMI”). CMI includes eight
enumerated categories of information conveyed in
connection with copies of a work, e.g., title of the work,
name of the author or copyright owner, terms and
conditions for use of the work, or even “identifying
numbers or symbols referring to such information or
links to such information.” 17 U.S.C. § 1202(c).
While it took several years to update copyright law,
the delay was not because of a disagreement about
CMI. Rather, the complexities of the other issues and
the debates surrounding them caused contention and
delays in passing this legislation. See generally 10
NIMMER ON COPYRIGHT II, at 8 (2021) (Senate
Judiciary Committee Report adopting CMI proposal
by unanimous consent). Perhaps CMI did not spur
disagreement because it was a win-win for all parties
involved. Artists would be identified alongside their
works online, users of copyrighted works would have

7
access to information needed to use and license works,
and the public could discover more works by their
favorite artists. The only party that would not benefit
from CMI would be infringers. Ultimately, Congress
passed the Digital Millennium Copyright Act
(“DMCA”) codifying the legal protections of CMI.
Congress’s vision for CMI was to ensure that the
public would be able to find works and authors on the
internet. Having some type of identification system
was important since copyright registration is not
mandatory for protection, and since “only a minority
of copyright works will ever be registered, no matter
how easy the process may be.” Neil Turkewitz,
Copyright Modernization: Unbreaking Copyright,
(July 6, 2020), https://bit.ly/3h3JUTJ. While CMI was
never intended to be required, the hope was to
encourage copyright owners “to include the
information to enable the public to more easily find
and make authorized uses of copyrighted works.”
Bruce A. Lehman et al., Intellectual Property and the
National Information Infrastructure: The Report on
Working Group on Intellectual Property Rights, 235236 (September 1995) [hereinafter NII DMCA White
Paper]. All identifying information in connection with
copyright works would fulfill this purpose; “the public
has an interest in knowing who created a work of
authorship so that readers, viewers, listeners (etc.),
can continue to enjoy past or future works by authors
who have earned their approbation.” Jane C.
Ginsburg, The Most Moral of Rights: The Right to be
Recognized as the Author of One’s Work, 8 George
Mason Int’l L.J. 44, 46 (2016). Congress understood

8
that “everyone gains when we provide greater
transparency about ownership and licensing.”
Turkewitz, Copyright Modernization. The DMCA’s
broad definition of CMI helped secure the spirit of
copyright law: to connect the public with creators and
their creative works.
When addressing the challenges posed by the
internet Congress had to decide how to approach
digital licensing and identification. The Committee
decided not to prescribe any specific methods, and
instead depended upon and encouraged the private
sector to develop and determine how best to identify
works. And, the private sector did just that. Congress’s
preference to have the private sector develop CMI led
to a technology-agnostic statutory definition of CMI.
See generally NII DMCA White Paper, at 235-236.
This allowed for a nimble threshold independent of
technological advancements or changes. This flexible
approach requires minimal updates from Congress.
The statute counter-balanced its broad definition with
several limiting principles, including a double scienter
requirement, intent and knowing. 17 U.S.C. § 1202(a);
GOLDSTEIN ON COPYRIGHT § 7.18 (2021). Therefore, the
broad definition of CMI can capture the diverse uses
of CMI while other parts of the statute limit liability
to bad actors.
When drafting the DMCA, the issues that related
to the internet forced Congress to re-conceptualize
how to assert rights, and trace the authorship, of
protected works. The Committee saw CMI working “as
a kind of license plate for a work on the information

9
superhighway, from which a user may obtain
important information about the work.” NII DMCA
White Paper, at 235. While the superhighway analogy
is an artifact from the dawn of the internet, it works
as an illustrative tool of the mechanical systems in
place online and how CMI interacts with them today.
Congress’s “license plate,” i.e. CMI, would allow those
who saw the author’s property to identify that author
or the work as the property moves across the internet
on Congress’s envisioned “information superhighway”.
In its search for a solution to the problems posed
by the impending digital infrastructure, Congress was
able to pass a broad definition of CMI. The statute’s
text clearly offers a broad definition under which
context does not matter. Energy Intelligence Grp., Inc.
v. Kayne Anderson Capital Advisors, L.P., 948 F.3d
261, 277 (5th Cir. 2020) (“CMI is defined broadly”)
(emphasis added). Murphy v. Millennium Radio Grp.
LLC, 650 F.3d 295, 302 (3d Cir. 2011) (The definition
of CMI is “extremely broad, with no restrictions on the
context in which such information must be used in
order to qualify as CMI”) (emphasis added). Since
CMI’s enactment in 1998, the private sectors have
done just what the committee had hoped: utilized the
broad definition of CMI.
This amicus brief will discuss three examples that
speak to the immense success of Congress’s broad
definition: Indigenous communities, photographers
and visual artists, and content-streaming services.

10
II.

Congress’s broad definition of CMI has
empowered and protected eclectic
groups of entities ranging from
marginalized groups to established
industries.
a. Individual citizens and non-profits
have innovatively utilized the
expansive
definition
of
CMI,
working with Indigenous groups to
use CMI to reclaim, reanimate,
protect
and,
looking-forward,
preserve, their culture and heritage.

Local Contexts, an initiative based out of New York
University, works with Indigenous communities and
other copyright owners of cultural materials to attach
human and machine-readable digital tags, known as
the Traditional Knowledge Notices or Labels (“TK
Label”), to works that originated within Indigenous
communities.
Creative works of Indigenous communities have
often been removed from Indigenous land by people
outside of the community. Through this removal,
these works have become decontextualized and are
missing important attribution information. This
decontextualization takes away from the work itself
because it erases Indigenous relationships to the
work, including authorship and culturally sensitive
terms of use. In response, Local Contexts has created
an ingenious solution to support Indigenous
communities in reclaiming association with their

11
creative works, and, in turn, over pieces of their
cultural heritage. This reclamation is partially
possible because the Labels re-establish a connection
to works originating from Indigenous communities.
While not all of these works are protected under
copyright, and not all of these Labels would constitute
CMI, in many instances CMI is the legal bedrock upon
which many of these Labels rest.
The separation of Indigenous communities and
their creative works have had major impacts on
Indigenous culture and community well-being. This
disconnection between Indigenous communities and
their creative works became “embedded into
institutional
infrastructures,
catalogues,
and
records…including through citational practices.” Jane
Anderson & Kimberly Christen, Decolonizing
Attribution: Traditions of Exclusion, 5 J. Radical
Libr’ship 113, 124 (2019). Viewing these works
without any context of where they came from, what
they were used for, or who was included in the work,
strips the works of cultural context and offers them to
the public in cultural isolation. Without this critical
information, what can be really known about
Indigenous culture is limited. This affects the
visibility of Indigenous peoples and issues within
public discourse, as well as how Indigenous histories
and experiences are shared and inform a national
narrative. When Indigenous history and experience is
told exclusively from an outsider’s perspective, the
public’s understanding of that history and experience
is hallowed. When Indigenous peoples and
communities don’t have possession rights over their

12
creative works, bias and exclusion can continue to
perpetuate impoverished public records.
In response to these issues, Local Contexts works
with Indigenous communities as well as legal rights
holders of these cultural materials to attach TK Labels
to works that originated in Indigenous communities.
Every unique community developed TK Label includes
a permanent digital identifier that “recognize[s] that
there could be accompanying cultural rights, protocols
and responsibilities that need further attention for
future sharing and use of this material.” There are
currently 18 TK Labels. Within the suite of Labels,
some include familiar types of CMI like attribution or
non-commercial use. 17 U.S.C. § 1202(c)(2),(6).
However, there are additional Labels that indicate
terms of use like seasonal requirements. For example,
the Seasonal Label recognizes that with some content
there are special responsibilities around the care of
the material. (e.g. a song intended to be played after
the first snowfall). TK Labels, Local Contexts,
https://localcontexts.org/labels/traditional-knowledgelabels/.

13

While not every TK Label is CMI, some of these Labels
comport to the definition under the plain-text
meaning. The TK Labels have two main goals. First,
they offer Indigenous communities a practical
mechanism to engage and build relationships with
institutions that hold and steward Indigenous
artifacts. TK Labels have a second goal that comports
with the concept of CMI, to empower Indigenous
communities to also protect the works they create
today. More specifically, Indigenous communities can
attach Labels to works that are created in the present.
Some of these TK Labels fall within the terms of use
definition 17 U.S.C. § 1202(c)(6) (“Terms and
conditions” for use of a copyrighted work included as
category of CMI). For example, similar to Creative

14
Commons licenses, the TK Attribution Labels give
guidelines about how to attribute the work and the TK
Non-Commercial Label advises individuals that the
work is not for commercial use. The primary goal of
laying out the terms of use for Indigenous works is to
establish norms and standards for cultural
institutions to preserve and engage with Indigenous
cultures into the future. The collection and extraction
of Indigenous works has perpetuated “well-worn
habits and traditions of erasure…that persist in
marginalizing Indigenous peoples’ voices and
perspectives.” Jane Anderson & Kimberly Christen,
Decolonizing Attribution: Traditions of Exclusion, 5 J.
Radical Libr’ship 113, 115 (2019). The TK Labels are
a tool to reverse this habit of Indigenous erasure. They
are a direct tool for Indigenous communities to reclaim
their cultural heritage through cultural terms of use,
attribution, and norm-setting.
The TK Labels offer a bridge between Indigenous
communities and the works that may or may not
reside within them through a robust centering of
proper attribution. Attribution rights for Indigenous
groups go beyond just a Label. It initiates a different
process of relationship building and can help break
down barriers and give Indigenous communities a seat
at the table to make decisions about access, ownership
and future uses of their works. Deliberate exclusion of
Indigenous groups, misattribution, or non-attribution
“profoundly affect how Indigenous peoples can
participate in their own public and published
narratives, how sovereignty can be enacted and
maintained, how access to heritage is made possible,

15
[and,] how histories and narratives can be retold[.]” Id
at 124. Therefore, by utilizing the broad definition of
CMI to protect some of these Labels, Local Contexts in
partnership with Indigenous communities, can begin
to reinvigorate cultural perspectives and establish
norms around culturally responsible and ethical use of
Indigenous works, and offer these groups a voice in
future uses of Indigenous cultural heritage.
The Passamaquoddy Tribe in Maine serves as an
illustrative example of the power of the TK Labels.
Current citizens of the Passamaquoddy Tribe worked
with the Library of Congress to restore proper
attribution and credit to the first wax cylinder
recordings ever made on Native lands in 1890.
Members of the Passamaquoddy community were able
to review the almost indecipherable recordings to
extract the words and rhythm. Through this project
with the Library of Congress, the current
Passamaquoddy community were able to revitalize
songs and bring them back into the institutional and
public record, reestablishing Passamaquoddy cultural
context. Not only is the Tribe properly attributed and
connected to these recordings for the first time in 130
years, they are also elaborating and extending the
songs, creating new dances and innovating around
their own cultural works. New recordings of
Passamaquoddy citizens singing a song that was
previously lost creates community connection. These
recordings are displayed with proper attribution
through the TK Labels in the Library of Congress, but
importantly also on the Passamaquoddy’s own
website, https://passamaquoddypeople.com/. These

16
Labels highlighting newly created works on the
Passamaquoddy Tribe website fit well within CMI’s
statutory definition.

The TK Labels offer a voice for the Passamaquoddy
community through attribution of the works they
created and for new works being created that draw
from and allow the community to continue to convey
its unique and rich culture. Many members of the
Passamaquoddy tribe had lost these songs due to a
disconnect between the community and its cultural
works. But, moving forward, these communities can

17
stay connected with their cultural heritage and bring
this cultural heritage to the public at large via TK
Labels. The human-readable labels even include
contact information for the Tribe in case a person has
questions about or wants advice on the instructions
within the TK Labels. Now, using the TK Labels, the
Passamaquoddy people can preserve their heritage
within their community and also educate the public
beyond their community about the proper and
respectful use of their cultural works.
As all of society shifts towards digital
infrastructures, Indigenous communities using TK
Labels have given themselves the opportunity to
seamlessly integrate into the future because all these
Labels are also machine-readable. This machinereadability sets up the preservation of cultural
contexts of new works from the start but also allows
those works to be connected back to communities
through permanent identifiers. The Labels are a
beautiful example of how previously marginalized
communities can utilize technology to reclaim and
reassert control over what was once lost in the
physical world. The innovative use of TK Labels
provides a concrete example of how diverse segments
of society are utilizing CMI to harness the power of
new digital infrastructures.

18
b. Visual
artists,
including
photographers,
are
uniquely
dependent upon CMI to protect their
works online and earn their
livelihood in a digitized society.
Of all of the groups that rely upon CMI,
photographers, graphic artists, and other visual
creators are perhaps the most reliant. Because of this,
photographers have been at the forefront of finding
methods to protect online works and facilitate
licensing. CMI is the legal architecture in which these
practices have been built. For decades, photographers
and other visual creators have been placing
“watermarks” across the surface of their images for
multiple purposes: to provide easy identification of
their works in a crowded marketplace; to provide
potential clients the ability to know who took the
photograph they love; and, for the critical task of
providing security against copyright infringement.
E.g., Dunja Djudjic, “Google Proposes Solution That
Makes Watermarks More Difficult to Remove, DIY
Photography” (Aug. 18, 2017), https://bit.ly/3h0HuXf
(noting new technique to protect photographers’
watermarks from removal). With the advent of digital
photography, not only have photographers relied upon
visible watermarks, but additionally, they have put
their contact information and copyright status in the
metadata embedded in each image. See Susan Carr,
Understanding Licensing – The Key to Being a
Professional Photographer, in Prof’l Bus. Practices in
Photography 3 (7th ed., 2008).

19
Photographers and other visual artists are
uniquely dependent upon CMI for their livelihoods.
CMI protection is vital to these individuals and small
businesses that fuel the creative economy of the
United States. See, e.g., Stephen E. Siwek, Copyright
Industries in the U.S. Economy: The 2018 Report 3
(2018),
https://iipa.org/files/uploads/2018/12/2018
CpyrtRptFull.pdf (industries with “primary purpose”
of creating and distributing creative content
contribute $1.3 trillion to U.S. GDP annually).
According to the Bureau of Labor Statistics, in 2020
median pay for a photographer was roughly $41,000 a
year. Occupational Outlook Handbook: Photographers
(2020), U.S. Bureau of Labor Statistics (last modified
Apr. 9, 2021), https://bit.ly/2Srmyip (median pay of
$41,280 per year or $19.85 per hour). Thus, the
importance of protection is vital. Photographers,
graphic designers, and others similarly situated are
forced to pick between two options making a difficult
choice – protect their copyrights through often costprohibitive litigation, or, as is more commonly elected,
to abandon seeking redress for infringement upon
their intellectual property at all. Removing vital tools
for creators to identify themselves and protect their
works, such as weakening CMI-based protections, is
simply another burden thrust upon the shoulders of
those who are least able to bear it.
The internet introduced the visual artist to a
dilemma: survival in a crowded digital space requires
visual artists to post their content online but doing so
is problematic. Survival in this competitive and
difficult industry is dependent upon visual creators

20
employing digital resources to share their work. There
is no viable path to succeed without sharing the work
you have created. Photographers and designers no
longer send around portfolios to attract business; that
antiquated idea of walking from agency to agency is
simply that – a relic of a pre-internet landscape. Now,
creators utilize websites, social media, and other
digital platforms. Today, their livelihoods depend
upon their digital presence. However, this leads to the
visual creator’s paradox: to be competitive, visual
artists must post content online, but posting their
content online makes their content uniquely
vulnerable to theft, i.e., to unauthorized copying or to
uncredited and unpaid disseminations. Each day
countless images are stolen and used without a valid
license. Cf. Timothy B. Lee, “Instagram just threw its
users of its embedding API under the bus,”
ArsTechnica (June 4, 2020), https://bit.ly/2SYgrTe.
Consequently, these unauthorized copies of stolen
works can make further licensing more difficult.
Absent clear and persistent CMI, the unlicensed
copies can obfuscate the creator’s online presence and
can prevent potential clients from tracing a work back
to its author. And, absent CMI, many works fall victim
to the orphan works problem.
The orphan works problem is uniquely prevalent
amongst visual creators. The term “orphan works” is
“used to describe the situation where the owner of a
copyrighted work cannot be identified and located by
someone who wishes to make use of the work in a
manner that requires permission of the copyright
owner." U.S. Copyright Office, Report on Orphan

21
Works 2 (Jan. 2006), https://www.copyright.gov/
orphan/orphan-report-full.pdf.). This Court has
explicitly recognized “the so-called ‘orphan works’
problem” that leads to “the difficulties [that] would-be
users of copyrightable materials may face in
identifying or locating copyright owners.” Golan v.
Holder, 565 U.S. 302, 334 (2012) (citing U.S.
Copyright Office, Report on Orphan Works 21-40
(2006)). The orphan works problem is uniquely
prevalent amongst photographic works: "With no
author name attached, the vast majority of published
photographs are destined to become orphan works
immediately upon publication. Photographers have
long been susceptible to the separation of authorship
information from their works.” Jeffrey Sedlik, The
Orphan
Works
Dilemma:
Challenges
and
Recommendations, Advertising Photographers of
America (Mar. 15, 2006). This is why CMI is crucial.
While visual creators bear the brunt of digital
sharing issues, they have also been at the forefront of
solving these problems. Congress’s broad definition of
CMI has empowered photographers to creatively use
CMI to alleviate the inherent risks that come with
posting their works online Cf., Energy Intelligence
Grp., Inc., 948 F.3d at 277(“CMI is defined broadly[.]”
(emphasis added)). These protections remain critical.
For example, over 15 million users utilize the PLUS
Coalition. Jeffrey Sedlik, Is the DMCA’s Notice-andTakedown System Working in the 21st Century?:
Responses of Jeffrey Sedlik to Chairman Tillis’
Questions for the Record, 1 (June 23, 2020). The PLUS
Coalition is an “initiative to create and broadly deploy

22
a Standard Technical Measure (STM) allowing
creators and copyright owners to store (“embed”)
standardized …(CMI) within digital photographs,
where that metadata can be readily accessed and
acted upon by online service providers (OSPs) and the
public.” Id. Not only are visual artists using new forms
of CMI, they are also using well-established forms.
For example, “[e]mbedded metadata for photographs
and other visual works is a mature technology,
broadly employed in and recognized by all manner of
devices for more than 30 years.” Id. Visual artists’ use
of embedded metadata is a prime example of an
established infrastructure created in reliance upon a
broad definition of CMI.
Visual artists, such as photographers, are uniquely
implicated by judicial interpretations of CMI. Not only
for the dissemination of their works but for their
entire livelihood. These creators are now at the mercy
of judicial whims deciding on a case-by-case basis
what constitutes CMI. It is imperative to protect these
visual creators by ensuring that the statute’s broad
definition of CMI that they have always relied upon
remains in place. Clarity from this Court about the
definition of CMI will help these artists navigate their
rights and protect their livelihoods.

23
c. As expected, leading entertainment
companies adopted CMI into their
core business models by using
streaming services to distribute
creative works to the public.
A new style of service that has now permeated the
modern American life to the point of ubiquity is the
streaming service. From movies to music to e-books,
streaming services have infused themselves into the
everyday life of many Americans. For example, 78% of
U.S. households subscribe to at least one video-ondemand service such as Amazon, Netflix, or Hulu.
Jonathan Berr, Consumers Can’t Get Enough Video
Streaming,
Forbes
(Aug.
31,
2020),
https://bit.ly/3wVLopJ.
This multi-billion-dollar
industry has revolutionized modern life. “Video
Streaming Market Size, Share & Industry Analysis”,
Fortune
Business
Insights
(June
2020),
https://bit.ly/3qrgxz1 (global video streaming market
valued at “$342.44 billion in 2019”). Individuals can
now access every episode of Law & Order online at the
click of a button; access the entire discography of the
Beatles instantly within the palm of their hand; or
access the entire bibliography of writer Haruki
Murakami contained within a slim device. These
modern marvels have given the public unprecedented
access to copyrighted works.
These streaming services spread content and
culture. This access to copyrighted works plays to the
heart of copyright’s purpose. As this Court has noted,
“the Framers intended copyright itself to be the engine

24
of free expression.” Eldred v. Ashcroft, 537 U.S. 186,
219 (2003). In this digital age, it is.
Copyright and technology have always been closely
intertwined; with the advent of the printing press
being the catalyst for copyright in the first place,
“copyright was technology’s child from the start.” Paul
Goldstein, Copyright’s Highway: From Guttenberg to
the Celestial Jukebox, 21 (2d ed. 2019). Now, the
internet has radically reduced the transaction cost of
distribution (just as the printing press did upon its
introduction). This reduced cost has allowed for the
dissemination of and access to more and more
copyright works, enriching the public and citizens of
the United States.
Digital content streaming services have built their
entire industry upon technology practices that rely on,
and that are facilitated by, CMI. “Streaming services
now provide the dominant way in which [content] is
distributed and consumed online. Digital rights
management (DRM) lies at the heart of this trend and
has evolved alongside a movement from copy-based to
streaming-based consumption.” Nick Scharf, The
Evolution and Consequences of Digital Rights
Management in Relation to Online Music Streaming,
1 (June 2021). "CMI is central to an effective DRM
system, as it is information that describes the work
and how it may be used." Jeffrey P. Cunard et al.,
Current Developments in the Field of Digital Rights
Management,
World
Intellectual
Property
Organization Standing Committee on Copyright and
Related
Rights,
52
(May
4,
2004),

25
https://bit.ly/3xS6HbH. These technologies rely upon
CMI to facilitate the seamless and automated
distribution of works, allowing an individual to sit on
her couch, click play, and watch as the movie appears
on her tv in the comfort of her own home. Coralie
Mercier, “Information about W3C and Encrypted
Media Extensions (EME)”, World Wide Web
Consortium
(W3C)
(Mar.
2016),
https://www.w3.org/2016/03/EME-factsheet.
But,
these technologies can’t work without CMI.
These automated uses were at the heart of the
initial vision of CMI: “To implement these rights
management functions, information will likely be
included in digital versions of a work (i.e., copyright
management information) to inform the user about
the authorship and ownership of a work (e.g.,
attribution information) as well as to indicate
authorized uses of the work (e.g., permitted use
information).” NII DMCA White Paper at 191.
In the streaming context, CMI, and the digital
rights management tools that use CMI, are part of a
machine-automated ecosystem. The CMI is read and
processed by machines. This ecosystem consists of
systems, e.g. the infrastructure required to stream
video content, that transmit content from devices to
TVs looking for CMI information. These systems were
created to ensure “that the person reading, viewing, or
using the product is really the person who is supposed
to have access to it, either through purchase or
belonging to an identified class of users.” Frederick W.
Dingledy & Alex B. Matamoros, Digital Rights

26
Management: What is Digital Rights Management?, 4
(2016). Machine-readable CMI helps copyrightprotected works safely navigate across the
information superhighway with its CMI license plate,
embodying Congress’s vision. These systems act as a
gatekeeper, only transmitting the content to trusted
destinations. If the CMI is removed, the safety
barriers that accompanied the works are gone,
resulting in a digital copy with no protections
accompanying it. Id. at 46-47. This copy, untethered to
any limiting function, can whiz around the internet
without triggering any of the mechanisms within a
system
intended
to
flag
its unauthorized
transmission. Stripped of its CMI, this copy can lead
to a domino-effect of wide-spread distribution and
more illegal copies. This rampant spread of protected
works could hardly be clawed back once let loose.
Therefore, having a strong definition of CMI protects
the integrity of this information in the first place.
Relying on the broad definition of CMI, creators
can utilize these technologies to help facilitate the safe
dissemination of creative works. All of the heavylifting done by CMI in this context is behind-thescenes. Individuals streaming content to their
televisions don’t see the CMI that allowed their TV to
receive the content from streaming services. These
individuals don’t decipher the “context,” or copyright
significance, of the machine-readable CMI. Therefore,
the Second Circuit’s extra-statutory interpretation
below undermines the context-agnostic approach to
CMI that a machine would employ when exposed to
these works.

27
****************
All of these uses are imperiled by the Second
Circuit’s decision below. The Second Circuit’s case-bycase context requirement threatens the already-inplace infrastructures of the individuals and groups
listed above, among many others who are similarly
situated. These uses of CMI serve the public good by
connecting people with Indigenous communities,
visual artists such as photographers, and limitless
streaming-content. The Second Circuit’s decision risks
the investments that these individuals and groups
have relied upon.
III.

The Second Circuit’s decision leads this
Court to an important crossroads.

As discussed throughout this amicus brief, the
plain-text reading of the statute has facilitated the
growth and development of a panoply of publicly
beneficial uses of CMI. Indigenous groups use CMI to
reclaim their cultural heritage. Photographers and
other visual artists use CMI to protect their
livelihoods. Content-streaming services use CMI to
protect copyrighted works when streaming content.
This is what Congress envisioned. Yet the Second
Circuit’s opinion threatens these uses without even
considering them.
Perhaps, the Second Circuit’s opinion suggests
that the panel of judges overlooked the significance of
the issue presented in connection with a bee-keeper’s
ad. Yet, their decision not only affects the bee-keeper’s

28
ad, but also has significant implications to all of those
listed within this brief, and others similarly situated.
After all, the extra-statutory requirement imposed by
the Second Circuit requires all of the innovators and
users of CMI to understand an ill-defined copyright
context in which information must be used to
constitute CMI. In many of the established uses
discussed throughout this brief, the copyright
significance of CMI would not be readily apparent to
the average person. Even more so, many of the
established uses are machine-readable, so almost no
person would be able to easily recognize the copyright
significance. But, there is no need for the Second
Circuit to fashion an extra-statutory limit to the
definition of CMI. For liability to attach, it isn’t the
average person who must readily understand the
significance – it is the person removing the CMI who
must know. It is not a judicial role to rewrite statutes.
Especially when all of the policy implications of such
a decision are not thought through. In this case, the
definition of CMI was judicially reworked to
haphazardly add an ill-defined “context matters”
requirement to the statutory definition.
The Second Circuit grossly erred by splitting off
from its sister circuits when looking at CMI. Its error
will not stay confined to the Second Circuit alone. The
digital economy does not stay confined to geographical
boundaries. Therefore, the decision to limit CMI’s
definition in one circuit affects creators in all circuits.
That is why it is imperative to resolve this circuit split
now.

29
The future of CMI is at a crossroads. Denying
certiorari and allowing the circuit split to persist will
have harmful effects on creators and the public at
large, including those detailed in this brief, who all
rely upon CMI for publicly beneficial purposes.
Granting certiorari in this case will give this Court the
opportunity to clarify this fundamental definition,
give certainty to those who rely upon the definition of
CMI, and resolve the circuit split.
CONCLUSION
Respectfully, the petition for a writ of certiorari
should be granted.
Dated: June 25, 2021
Respectfully Submitted,
Megan Verrips
Information Dignity Alliance
P.O. Box 8684
Portland, OR 97207
(925) 330-0359
megan@informationdignityalliance.org
Counsel for Amici Curiae

Edward F. Cunningham
Counsel of Record
Law Offices of
Edward F. Cunningham
62 Cambridge Avenue
Garden City, NY 11530
(516) 328-3705
ed@edcuninghamlaw.com

